No. 19-26

IN THE

Supreme Court of the United States
DARLENE COLLINS, ET AL
v.
CHARLES W. DANIELS, ET AL

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

PETITION FOR REHEARING

A. BLAIR DUNN

Counsel of Record
Western Agriculture,
Resource and Business
Advocates, LLP
400 Gold Ave SW,
Suite 1000
Albuquerque, NM 87102
abdunn@ablairdunn-esq.com

(505) 750-3060

CURRY & TAYLOR  202-393-4141

1
PETITION FOR REHEARING
I.

INTERVENING CIRCUMSTANCES OF
CONTROLLING EFFECT, NOT
PREVIOUSLY PRESENTED,
WARRANTING REHEARING.

In the time since the Petition for Certiorari was
presented to this Court, the usurpation of the policy
making function of the legislative branches has come to
culmination. In Missouri, a despotic high court has
adopted the same policy making legislative action as
the New Mexico Supreme Court to eliminate a bail
system ensuring the right of the accused to bail on the
least restrictive set of conditions in compliance with the
Court’s holding in US v. Salerno, 481 U.S. 739, 742, 107
S. Ct. 2095, 2099, 95 L. Ed. 2d 697 (1987) in favor of a
system not adopted by Missouri’s legislature, and one
that does violence to the presumption of innocence and
the protection thereof found in the Eighth Amendment.
Though a cursory reference to this action was found as
a footnote in the Petition for Certiorari, the full effect of
this matter in Missouri was unseen,1 but more
importantly no action to hold the Missouri High Court
accountable for its usurpations has occurred, ostensibly
and likely because no attorney is willing to face the
type of retaliation against undersigned counsel upheld
by the Tenth Circuit in the decision below.
Likewise, in California the high court has not
only pressed forward with policy making but has
notoriously continued reforms after they have been
certified to be presented to the people by referendum
1

Pet.App. 20b-51b

2
on the 2020 ballot. In fact there is no clearer statement
of this intervening circumstance than the statement of
the Chief Justice of the California Supreme Court
stating “In California, we are leading and experiencing
reforms driven by best practices, but also pilot projects,
court decisions, and legislation,” Cantil-Sakauye said.
“This workgroup will help continue progress toward
reform that benefits the branch, enhances public safety
and promotes equitable treatment of all who come
through our criminal justice system.” 2 Thus, the
California High Court has engaged in a legislative and
policy making exercise that the legislature itself can no
longer pursue until the voters decide the question. And
more concerning, yet, the California Supreme Court is
pressing forward with policy reforms costing the
taxpayers $75 million for pilot programs of arguably
dubious constitutional correctness, that again, remain
unchallenged by any legal counsel likely due to the
threat of sanctions upheld by the Tenth Circuit and
unaddressed by this Court.
Alexander Hamilton said, “There is no liberty if
the power of judging be not separated from the
legislative and executive powers.” Federalist 78,
Federalist Papers (Clinton Rossiter, ed., New York:
Penguin Books, 1961).

2

Pet.App. 6b; See also 1b-5b and 7b-19b

II.

3
UNCHECKED JUDICIAL ACTIVISM BY
STATE HIGH COURTS THREATEANS
OUR REPRESENTATIVE GOVERNMENT
AND THIS COURT SHOULD GRANT THE
PETITION

Robert Bork articulated well that a respect by
the judiciary for the balance of powers as originally
intended by the framers must:
appeal to a common sense of what judges’ roles
ought to be in a properly functioning
constitutional democracy. Judges are to overturn
the will of legislative majorities absent a
violation of a constitutional right, as those rights
were understood by the Framers.
John E. Thompson, “What’s the Big Deal? The
Unconstitutionality of God in the Pledge of Allegiance”,
38 Haw. C.R.-C.L.L. Rev. 563, Summer: citing Robert
Bork, the Tempting of America: The Usurpation of Law
By Politics (1999). Therefore, it is clear from New
Mexico, Missouri, and now California that the greatest
threat to liberty, our representative government, and
the rule of law, is judicial activism in the name of
legislating policy reforms perceived to be a social good
or remedying some perceived inequality or injustice.
“There is in all of us a strong disposition to believe that
anything lawful is also legitimate. This belief is so
widespread that many persons have erroneously held
that things are ‘just’ because law makes them so.”
Frédéric Bastiat, The Law, The Foundation for
Economic Education, Inc., Irvington-on-Hudson, New
York 10533.

4
Thus, protecting liberty in this instance, though
normally deferential to concerns of Federalism,
requires this Court’s review at least as much if not
more so than this Court’s intervention in Bush v. Gore,
531 U.S. 98, 114 (2000). Just as in Bush v. Gore, this case
plus the recent actions of the Missouri Supreme Court
and the California Supreme Court warrant action by
this Court as the unique situation where this Court
should
“…determine whether a state court has
infringed upon the legislature's authority, we
necessarily must examine the law of the State as
it existed prior to the action of the court. Though
we generally defer to state courts on the
interpretation of state law—see, e.g., Mullaney
v. Wilbur, 421 U.S. 684, 95 S.Ct. 1881, 44 L.Ed.2d
508 (1975)—there are of course areas in which
the Constitution requires this Court to
undertake an independent, if still deferential,
analysis of state law.
Bush v. Gore, 531 U.S. 98, 114 (2000). Just as the
Federal Judiciary is a check on the other two branches
of the Federal government, so too is the U.S. Supreme
Court a check of the power of state judiciaries against
the same concerns of despotism. Thomas Jefferson
illustrated the need for this check, warning about a
Federal judiciary behaving as these state high courts
now behave, stating “[b]ut the opinion which gives the
judges the right to decide what laws are constitutional
and what not, not only for themselves in their own
sphere of action but for the Legislature and Executive
also in their spheres would make the Judiciary a
despotic branch”. Letter from Thomas Jefferson to

5
Abigail Adams, 1804. Available at etext.lib.virginia.
edu/jefferson/quotations/jeff1030.htm.
Alexander
Hamilton agreed, stating “that there is no liberty, if the
power of judging be not separated from the legislature
and executive powers.” Clinton Rossiter, ed.,
Federalist 78, Federalist Papers (New York Penguin
Books, 1961).
Indeed, it appears that this case was only a
precursor to judicial activism in Missouri and
California, which should now demonstrate to this Court
that there are substantial circumstances brewing of
judicial activism in state high courts across the nation
that should not be left unaddressed and unchecked.
Indeed, “the American people will never be able to
regain democratic self-government – and thus shape
policy – until we curb activist judges.” Edwin Meese
III, “How Congress Can Rein in the Courts”, Hoover
Digest, 1997 No. 4, adapted from Intellectual
Capital.com, Volume 2 Issue 16, April 17, 1997, from an
article entitled “The Judiciary vs. The Constitution?”
Therefore, just as this Court stepped in, in Bush
v. Gore, to protect the integrity of the Constitution
surrounding the election of the President, so too should
this Court now step in to protect the structural
integrity of the separation of powers in the several
states, and the integral structural integrity of the legal
profession’s ability to safeguard against judicial
tyranny and usurpation of powers reserved to the
people and their state legislatures. The antidote to
judicial activism by state high courts is judicial
accountability. The Tenth Circuit’s decision in this
regard destroys any chance of an antidote ever
reaching this Court again to safeguard the liberties of

6
bail protected by the Eighth Amendment. By allowing
the Tenth Circuit to uphold sanctions against
undersigned counsel, this Court sends a clear message
that under absolutely no circumstances may the
judiciary anywhere in the Nation be held accountable
for violating the Constitution.
James Madison once said, “[j]ustice is the end of
government. It is the end of civil society. It ever has
been and ever will be pursued until it be obtained, or
until liberty be lost in the pursuit.”
CONCLUSION
The Court should grant the Petition.
A. Blair Dunn
WESTERN AGRICULTURE RESOURCE AND
BUSINESS ADVOCATES, LLP
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 760-5060
abdunn@ablairdunn-esq.com
Counsel for Petitioners

7
RULE 44 CERTIFICATE OF COUNSEL
As required by Supreme Court Rule 44.2, I
certify that the Petition for Rehearing is limited to
“intervening circumstances of a substantial or
controlling effect or to other substantial grounds not
previously presented.” And that the Petition is
presented in good faith and not for delay.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed this 1st day of November 2019.
Respectfully submitted,
A. Blair Dunn
WESTERN AGRICULTURE RESOURCE AND
BUSINESS ADVOCATES, LLP
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 760-5060
abdunn@ablairdunn-esq.com
Counsel for Petitioners

1b
https://www.visaliatimesdelta.com/story/news/2019/04/0
3/california-voters-get-say-bail-system-judges-urgereform/2598147002/
California voters will get say on bail system, judges
urge reform
Sheyanne N Romero,
Romero , Visalia TimesTimes-Delta
Published 8:04 a.m. PT April 3, 2019
California's no cash bail law is on hold until the
November 2020 election.
But, leaders in criminal justice plan to move forward
with reforms to the state's pretrial detention system.
Chief Justice Tani Cantil-Sakauye recently met with 12
members of the criminal justice system from across the
state to review pretrial detention progress and identify
possible improvements.
The group included trial court judges, appellate justices
and court executive officers from courts of all sizes and
from both rural and urban areas.
The review began in February.
"In California, we are leading and experiencing reforms
driven by best practices, but also pilot projects, court
decisions, and legislation,” Cantil-Sakauye said. “This
workgroup will help continue progress toward reform
that benefits the branch, enhances public safety and
promotes equitable treatment of all who come through
our criminal justice system.”
Across California, pretrial release and detention
primarily based on cash bail are slowly being replaced.

2b
Senate Bill 10 was passed by former Gov. Jerry Brown
and meant to put an end to cash bail.
However, the bill was met with strong opposition —
bail agents and prosecutors.
Tulare County wasn't apart of February discussions
but court officials intend to continue using its pretrial
risk assessment tool.
The Arnold Foundation's pretrial risk assessment
tool was implemented in June and is administered by
court and probation. Court and probation employees
were trained for months before using the tool.
"Pretrial justice itself has been a long overlooked area
in which resources and creative thought should
be given," said Tulare County Presiding Judge Brett
Alldredge. "We have dozens of cases on the
calendar with defense and prosecution trying to
negotiate deals."
The court is given recommendations on what they
should do with a defendant based on a number of
factors including public safety and flight risk — failure
to appear.
Alldredge said having a probation office on hand as a
resource has been a "boon" in the courtroom.
"It's made us much more effective," he said. "The court's
relationship with the probation department has been
outstanding."
Along with recommendations from the probation
department, judges use nine factors to determine a
defendant's release including the risk of failure to
appear, behavior, and violence. The defendant's age,

3b
charge and any prior law enforcement encounters are
also taken into consideration.
"I truly believe that justice is best delivered if it's done
in a considered fashion on an individualized basis with a
judge that is as fully informed as possible," Alldredge
said.
Other California jurisdictions have implemented bail
reform using a similar risk assessment tool that
classifies a defendant into one of three categories.
Low risk means release from jail for free; medium risk
means there is increased supervision and monitoring;
and high risk means preventative detention — no
release at all.
However, these risk assessment tools aren't always
reliable.
Some violent offenders have been declared as safe,
while others with seemingly minor blemishes on their
records have been categorized as dangerous.
This means there are violent offenders being released
for free, while others with minor blemishes on their
records have been deemed “high risk” and are stuck in
jail.
Despite debates, many feel that pretrial detention will
never be what it once was. Courts will have a better
idea of how they should move on.
"If we are to continue to adopt programs consistent
with the spirit of SB 10, I know that we've already done
that here," Alldredge said. "We are ahead of the curve,
by quite a ways."

4b
A previous workgroup established by the chief justice
to study pretrial detention released a slate of
recommendations in 2017.
Those recommendations included replacing money bail
with a risk-based assessment and supervision program
that base decisions on whether to jail offenders before
trial based on their threat to public safety and their
likelihood of making a court appearance.
Brown signed SB 10 into law in August. His
decision relied heavily on the workgroup’s
recommendations.
However, some weren't in favor of the bill.
"I didn't support SB 10 when it came through the
Assembly. I didn't think it was fully cooked. The bill
was very rushed," said Assemblyman Devon
Mathis. "I'm glad it made it back to the ballot. It's
allowing the voters to decide."
The new law — which would have taken effect on Oct. 1
— was immediately met with resistance from both civil
rights groups, politicians and the bail bond industry.
"This measure has a lot of repercussions and we should
respect the will of the people," Mathis said. "As of late,
it feels like California has forgotten about its duty to
its citizens."
Bail industry leaders collected the more than 500,000
signatures needed to place SB 10 on the November
2020 ballot. The signatures were certified by the
Secretary of State, which places the bill on hold.
“We knew with the momentum against this law from
people on all sides of the issue, getting on the ballot

5b
would not be the problem," said Jeff Clayton, executive
director of the American Bail Coalition. "Now we can
move on toward defeating this reckless law.

6b
https://newsroom.courts.ca.gov/news/chief-justicenames-group-to-review-pretrial-reform-efforts-incalifornia
Chief Justice Names Group to Review Pretrial Reform
Efforts in California
Twelve jurists are selected to serve on the Pretrial
Reform and Operations Workgroup
January 15, 2019
Chief Justice Tani G. Cantil-Sakauye on Tuesday
announced a new work group to review progress on
reforms to California’s system of pretrial detention and
identify next steps to continue work on the issue.
The 12-person group—which includes trial court
judges, appellate justices and court executive officers
from courts of all sizes and from both rural and urban
areas—will begin meeting in February.
“Across California and the nation, pretrial release and
detention primarily based on cash bail are slowly being
replaced with safer and fairer alternatives. In
California, we are leading and experiencing reforms
driven by best practices, but also pilot projects, court
decisions, and legislation,” Chief Justice Cantil-Sakauye
said. “This work group will help continue progress
toward reform that benefits the branch, enhances
public safety and promotes equitable treatment of all
who come through our criminal justice system.”
The members of the Pretrial Reform and Operations
Workgroup include:

7b
Justice Marsha Slough (Chair), Associate Justice of the
Court of Appeal, Fourth Appellate District, Division
Two (Riverside)
Judge Marla Anderson, Monterey County Superior
Court
Judge C. Todd Bottke, Tehama County Superior Court
Justice Tom DeSantos, Associate Justice of the Court of
Appeal, Fifth Appellate District (Fresno)
Judge Judith Dulcich, Kern County Superior Court
Judge Jackson Lucky, Riverside County Superior
Court
Judge Serena Murillo, Los Angeles County Superior
Court
Judge Sam Ohta, Los Angeles County Superior Court
Judge Winnifred Younge Smith, Alameda County
Superior Court
Alex Calvo, Court Executive Officer, Santa Cruz
County Superior Court
Sherri R. Carter, Court Executive Officer, Los Angeles
County Superior Court
David Yamasaki, Court Executive Officer, Orange
County Superior Court
The workgroup will review progress on reforms to
California’s system of pretrial detention and identify
next steps to continue work on this important issue,
including developing recommendations for funding
allocations of the pilot projects and examining risk

8b
assessment tools.
A previous workgroup established by the Chief Justice
to study pretrial detention released a slate of
recommendations in 2017. Those recommendations
included replacing money bail with a risk-based
assessment and supervision program that bases
decisions on whether to jail arrestees before trial based
on their threat to public safety and their likelihood of
making a court appearance.
Last August, former Gov. Jerry Brown signed a
pretrial reform bill that relied heavily on the
workgroup’s recommendations. Gov. Gavin Newsom’s
January budget proposal released last week included
$75 million to the Judicial Council of California to fund
programs related to pretrial decision-making.
Chief Justice Cantil-Sakauye first called for a review of
California’s pretrial detention system during her 2016
State of the Judiciary address to the Legislature,
asking whether the current system effectively serves
its purpose or unfairly penalizes the poor.

9b
https://newsroom.courts.ca.gov/news/judicial-councilfunds-16-pretrial-pilot-programs
Judicial Council Funds 16 Pretrial Pilot Programs
$75 million funds pretrial reform efforts in courts of all
sizes throughout California
August 09, 2019
Merrill Balassone

415-865-7740

SAN FRANCISCO—The Judicial Council on Friday
awarded millions of dollars to fund 16 pretrial projects
in trial courts throughout the state.
This year’s state budget earmarked $75 million to the
Judicial Council to launch and evaluate two-year
pretrial projects in local trial courts. As directed by the
Legislature, the projects aim to increase the safe and
efficient release of arrestees before trial; use the least
restrictive monitoring practices possible while
protecting public safety and ensuring court
appearances; validate and expand the use of risk
assessment tools; and assess any bias.
"This is another example of action by the three
branches of state government to address an issue of
fairness and equal access to justice for all Californians,"
said Chief Justice Tani G. Cantil-Sakauye.
"When I first publicly called for a review of California’s
pretrial detention system during my 2016 State of the
Judiciary address, it was because I was questioning

10b
whether the current system effectively served its
purpose or unfairly penalized the poor. My first
workgroup on pretrial detention reform found that the
current system was 'unsafe and unfair.' Today, we are
harnessing innovation from courts throughout the state
to make our system safer and fairer for all."
The approved projects are:

COURT

FUNDING

NEW / EXISTING
PROGRAM

Alameda

$14.4 million

Restore program

Calaveras

$531,000

New program

Kings

$1.12 million

New program

Los Angeles $17.3 million

Expand program

Modoc

$746,000

New program

Napa

$1.7 million

Expand program

NevadaSierra

$331,000

Expand program

Sacramento

$9.59 million

New program

San Joaquin

No funds
requested

Maintain program

San Mateo

$6.19 million

Expand program

Santa

$1.6 million

Expand program

11b
Barbara
Sonoma

$5.76 million

Expand program

Tulare

$3.77 million

Expand program

Tuolumne

$632,000

Expand program

Ventura

$3.7 million

Expand program

Yuba

$844,000

Expand program

Each of the pretrial pilot projects will operate under
existing law and incorporate release decisions made by
judicial officers prior to arraignment—or at
arraignment if a hearing is required—informed by a
risk assessment conducted by county probation
departments.
Highlights of the approved pilot projects can be
found here.
here .
The pilot projects were recommended by the Pretrial
Reform and Operations Workgroup, which was
launched by Chief Justice Tani Cantil-Sakauye in
January. The 12-person group includes trial court
judges, appellate justices and court executive officers
from courts of all sizes and from both rural and urban
parts of the state.
“The majority of California’s trial courts applied to the
program and selecting just 16 was no easy task,” said
Justice Marsha G. Slough, who chairs the workgroup.
“Their interest is a strong indicator of the judicial

12b
branch’s commitment to enhancing fairness, safety, and
efficiency in the release of individuals before trial.”
A previous workgroup established by the Chief Justice
to study pretrial detention released a slate of
recommendations in 2017. Those recommendations
included replacing money bail with a risk-based
assessment and supervision program that bases
decisions on whether to jail arrestees before trial based
on their threat to public safety and likelihood of
showing up to court.

13b
https://www.courthousenews.com/judicial-council-oks68m-for-pretrial-release-pilot-program/
Judicial Council OKs $68M for PretrialPretrial-Release Pilot
Program
August 9, 2019
MARIA DINZEO
SAN FRANCISCO (CN) – The Judicial Council of
California approved $68 million Friday to fund pilot
projects in 16 trial courts aimed at releasing more
arrestees from jail while they await trial.
Legislation dismantling the for-profit bail system in
California is currently on hold pending a repeal
referendum next November. The courts, which will
shoulder the burden of pretrial reform, are preparing
for an alternative system that emphasizes both public
safety and monitored release that is not based on a
person’s ability to pay.
Fourth Appellate District Justice Marsha Slough, who
chairs the Pretrial Reform and Operations Workgroup
created by Chief Justice Tani Cantil-Sakauye in
January, said the move is far from perfect but will lead
to a more equitable criminal justice system.
“I have no doubt that there are people, there are
naysayers that are looking and waiting for that very
first release decision gone wrong,” she said. “We also
know of people who are losing their jobs and losing
their homes and sometimes losing their family simply
because they cannot afford to pay bail.”

14b
It wasn’t easy for the workgroup to winnow down the
list of 31 applicant courts. Slough said the tremendous
amount of interest was sobering.
The pot of available money promised by the Legislature
this year is $75 million, and the workgroup received
funding requests totaling $106 million from large courts
alone, Slough said.
Some projects are already up and running and
requested funding to expand. Others are starting from
scratch.
The courts selected are in Alameda, Los Angeles,
Sacramento, San Mateo, Santa Barbara, Sonoma,
Tulare, Ventura, Kings, Napa, Sierra, Yuba, NevadaSierra, Tuolumne, Modoc and Calaveras counties.
San Joaquin County’s current pretrial program was
selected as one of the 16, though it didn’t request any
funding.
“That is because they have a good robust program up
and running. But they also felt like it had room for
improvement and they could learn from what we are
doing and they felt that the data exchange piece was
really important,” Slough said.
The funding from the Legislature comes with some
conditions. The courts must increase the number of
detainees released before trial, using the least
restrictive monitoring tools necessary to keep the
public safe while ensuring defendants make their court
dates.
All of the courts plan to use risk-assessment tools, as
required by the Legislature, and will be keeping data

15b
on any bias based on race, ethnicity and gender in
pretrial decision making.
Since bail is part of existing law, it is still available as
an option.
Council staff member Shelley Curran, who directs the
Criminal Justice Services division, said the courts will
also collect data on failure-to-appear rates, re-arrest
rates, and the effectiveness of court date reminder
systems.
“We get reminders for haircuts and restaurants or the
dentist, so it’s one of the things we know that works in
the pretrial arena,” she said.
David Mauroff, CEO of the nonprofit San Francisco
Pretrial Diversion Project, spoke during the council’s
public comment period. Founded by the San Francisco
Bar Association and municipal court judges in 1976, SF
Pretrial is considered one of the most successful longrunning pretrial projects in the state but faces
elimination as an unexpected consequence of last year’s
bail reform legislation.
His program already conducts pretrial risk assessments
for San Francisco apart from law enforcement, but
Senate Bill 10 requires counties to create pretrial
programs within court probation departments. San
Francisco Superior Court’s probation department plans
to take over pretrial services in the city and was one of
the 31 courts that applied for funding. Mauroff said this
was done without consulting SF Pretrial or any of its
justice partners.

16b
Mauroff said he was relieved the San Francisco court
did not make the cut, because that gives his program at
better shot at preservation.
“For now, we’re saved. It’s a deep sigh of relief. But
you never know when the next hurdle is going to
come,” he said after the vote. “We were there to
support the recommendations and our understanding is
even though the recommendations were made, there
were still opportunities to change them and we wanted
to make sure our voice was heard.”
His group plans to continue working with legislators to
carve out an exemption to the constraints of SB 10.
“There’s still work to be done,” he said.
(chart)

17b
https://www.courts.ca.gov/pretrial.htm
SB 10: Pretrial Release and Detention
Notice
Referendum 1856 (18-0009), Referendum to Overturn a
2018 Law That Replaced Money Bail System with a
System Based on Public Safety Risk, qualified for the
November 2020 ballot, after being certified by the
Secretary of State on January 16, 2019. Qualification of
the referendum has the effect of staying SB 10. At this
time, the Judicial Council of California has suspended
implementation of the legislation, including adoption of
California Rules of Court. If you have specific
questions, please contact the council’s Criminal Justice
Services office: crimjusticeoffice@jud.ca.gov
Overview
Senate Bill 10 (Hertzberg, Stats. 2018, ch. 244)
authorizes a change to California’s pretrial release
system from a money-based system to a risk-based
release and detention system.
SB 10 assumes that a person will be released on his or
her own recognizance or supervised own recognizance
with the least restrictive nonmonetary condition or
combination of conditions that will reasonably assure
public safety and the defendant’s return to court.
. What Does SB 10 Do?
Creates series of categories of persons and offenses:
Different levels of review
Misdemeanors - Most are cited and released within 12
hours

18b
Greater scrutiny as seriousness of the offense increases
Detention is based on risk, not lack of money
Eliminates cash bail or bail bonds
When there is very strong evidence that no conditions
of release can reasonably assure public safety, a
defendant can be detained pretrial, regardless of
financial resources
Important Information on SB 10
SB 10 Overview

Updated November 8, 2018

Summary of Release and Detention Process Under SB
10
Overview of the Pretrial Process Under SB 10
(charts)
Frequently Asked Questions
expand all collapse all

D oes SB 10, the pretrial reform legislation, mean a
judge has less discretion to decide who to detain or
release before trial?
Under SB 10, will an algorithm decide who is eligible
for release before trial?
What are the benefits of a Pretrial Assessment
System?
What California counties have used pretrial
assessment systems?

19b
What percentage of the people held in California
jails are unsentenced?
What is the size of California’s bail industry?
Have other U.S. sstates
tates implemented bail reform?

20b
https://www.courts.mo.gov/sup/index.nsf/d45a7635d4bf
db8f8625662000632638/beec23ef4487304b86258367006ca
1c6?OpenDocument
Order dated December 18, 2018, re: Rules 21, 22 and 33
SUPREME COURT OF MISSOURI
en banc
December 18, 2018
Effective July 1, 2019
In re:
(1) Repeal of subdivision 21.03, entitled "Misdemeanors –
Summons or Warrant of Arrest – When Issued;" subdivision
21.04, entitled "Misdemeanors – Statement of Probable Cause
– Contents;" subdivision 21.05, entitled "Misdemeanor –
Summons – Contents;" the heading title and subdivision
21.06, entitled "Misdemeanors – Warrant of Arrest –
Contents;" the heading title and subdivision 21.09, entitled
"Misdemeanors – Appearance Under Warrant Before
Judge;" and the heading title and subdivision 21.10, entitled
"Misdemeanors – Initial Proceedings Before Judge," of Rule
21, entitled "Procedure Applicable to Misdemeanors Only,"
and in lieu thereof adoption of a new subdivision 21.03,
entitled "Misdemeanors – Summons or Warrant of Arrest –
When Issued;" a new subdivision 21.04, entitled
"Misdemeanors – Statement of Probable Cause – Contents;" a
new subdivision 21.05, entitled "Misdemeanor – Summons –
Contents;" a new heading title and a new subdivision 21.06,
entitled "Misdemeanors – Warrant for Arrest – Contents;" a
new heading title and a new subdivision 21.09, entitled

21b
"Misdemeanors – Appearance Under Warrant Before the
Court;" and a new heading title and a new subdivision 21.10,
entitled "Misdemeanors – Initial Appearance Before the
Court."
(2) Repeal of subdivision 22.03, entitled "Felonies – Statement
of Probable Cause – Contents;" subdivision 22.04, entitled
"Felonies – Warrant of Arrest – When Issued;" the heading
title and subdivision 22.05, entitled "Felonies – Warrant of
Arrest – Contents;" the heading title and subdivision 22.07,
entitled "Felonies – Appearance Under Warrant Before
Judge;" the heading title and subdivision 22.08, entitled
"Felonies – Initial Proceedings Before Judge;" and
subdivision 22.09, entitled "Felonies – Preliminary Hearing,"
of Rule 22, entitled "Procedure Applicable to Felonies Only,"
and in lieu thereof adoption of a new subdivision 22.03,
entitled "Felonies – Statement of Probable Cause –
Contents;" a new subdivision 22.04, entitled "Felonies –
Warrant of Arrest – When Issued;" a new heading title and a
new subdivision 22.05, entitled "Felonies – Warrant for
Arrest – Contents;" a new heading title and a new subdivision
22.07, entitled "Felonies – Appearance Under Warrant
Before the Court;" a new heading title and a new subdivision
22.08, entitled "Felonies – Initial Appearance Before the
Court," and a new subdivision 22.09, entitled "Felonies –
Preliminary Hearing."
(3) Repeal of subdivision 33.01, entitled "Misdemeanors or
Felonies – Right to Release – Conditions;" the heading title
and subdivision 33.02, entitled "Misdemeanors or Felonies –
Warrant for Arrest – Officials Authorized to Set Conditions
of Release – Conditions to be Stated on Warrant;" subdivision
33.04, entitled "Misdemeanors or Felonies – Officer
Authorized to Accept Conditions of Release;" the heading
title and subdivision 33.05, entitled "Misdemeanors or

22b
Felonies – Right to Review of Conditions;" subdivision 33.06,
entitled "Misdemeanors or Felonies – Modification of
Conditions of Release;" subdivision 33.07, entitled
"Misdemeanors or Felonies – Rules of Evidence
Inapplicable;" the heading title and subdivision 33.08, entitled
"Misdemeanors or Felonies – Rearrest of Accused;
subdivision 33.09, entitled "Misdemeanors or Felonies –
Failure of Court to Set Conditions or Setting of Inadequate
or Excessive Conditions for Release – Application to Higher
Court;" subdivision 33.10, entitled "Misdemeanors or Felonies
– Transmittal of Record by Clerk of the Releasing Court;"
and subdivision 33.11, entitled "Misdemeanors or Felonies –
Bonds – Where Filed – Certification by Sheriff or Peace
Officer – Cash Bonds," of Rule 33, entitled "Misdemeanors or
Felonies – Release Pending Further Proceedings," and in lieu
thereof adoption of a new subdivision 33.01, entitled
"Misdemeanors or Felonies – Right to Release – Conditions;"
a new heading title and a new subdivision 33.02, entitled
"Misdemeanors or Felonies – Warrant for Arrest –
Conditions to be Stated on Warrant;" a new subdivision 33.04,
entitled "Misdemeanors or Felonies – Officer Authorized to
Accept Conditions of Release;" a new heading title and a new
subdivision 33.05, entitled "Misdemeanors or Felonies –
Release Hearing;" a new subdivision 33.06, entitled
"Misdemeanors or Felonies – Modification of Conditions of
Release;" a new subdivision 33.07, entitled "Misdemeanors or
Felonies – Rules of Evidence Inapplicable;" a new heading
title and a new subdivision 33.08, entitled "Misdemeanors or
Felonies – Rearrest of Defendant;" a new subdivision 33.09,
entitled "Misdemeanors or Felonies – Failure of Court to Set
Conditions or Setting of Inadequate or Excessive Conditions
for Release – Application to Higher Court;" a new subdivision
33.10, entitled "Misdemeanors or Felonies – Transmittal of
Record by Clerk of the Releasing Court," and a new
subdivision 33.11, entitled "Misdemeanors or Felonies –

23b
Bonds – Where Filed – Certification by Sheriff or Peace
Officer – Cash Bonds."
ORDER
1. It is ordered that effective July 1, 2019, subdivision 21.03,
subdivision 21.04, subdivision 21.05, the heading title and
subdivision 21.06, the heading title and subdivision 21.09, and
the heading title and subdivision 21.10 of Rule 21 be and the
same are hereby repealed and a new subdivision 21.03, a new
subdivision 21.04, a new subdivision 21.05, a new heading title
and a new subdivision 21.06, a new heading title and a new
subdivision 21.09, and a new heading title and a new
subdivision 21.10 adopted in lieu thereof to read as follows:
21.03 MISDEMEANORS – SUMMONS OR
WARRANT OF ARREST – WHEN ISSUED
(a) When an information is filed pursuant to Rule 21.02,
a summons shall be issued unless the court finds that
sufficient facts have been stated to show probable cause
that a misdemeanor has been committed and there are
reasonable grounds to believe:
(1) The defendant will not appear upon the summons; or
(2) The defendant poses a danger to a crime victim, the
community, or any other person.
If the court so finds, a warrant of arrest for the
defendant may be issued.
(b) When an indictment charging the commission of a
misdemeanor is returned, either a summons or warrant
of arrest may be issued.

24b
(c) If a warrant is issued under this rule, the court shall
take into account, on the basis of available information,
the factors set forth in Rule 33.01(e) when setting the
condition or combination of conditions of release, if any,
required by Rule 33.01(b) and allowed by Rule 33.01(c).
21.04 MISDEMEANORS – STATEMENT OF
PROBABLE CAUSE – CONTENTS
A statement of probable cause must be in writing and
shall:
(a) State the name of the defendant or, if not known,
designate the defendant by any name or description by
which the defendant can be identified with reasonable
certainty;
(b) State the date and place of the offense as definitely
as can be done;
(c) State the facts that support a finding of probable
cause to believe an offense was committed and that the
defendant committed it;
(d) If a warrant will be requested, state the facts, if any,
that support a finding of reasonable grounds to believe
the defendant will not appear upon a summons or the
defendant poses a danger to a crime victim, the
community, or any other person;
(e) State that the facts contained therein are true; and
(f) Be signed and on a form bearing notice that false
statements made therein are punishable by law.

25b
21.05 MISDEMEANOR – SUMMONS – CONTENTS
The summons shall:
(a) Be in writing and in the name of the State of
Missouri;
(b) State the name of the defendant summoned;
(c) Describe the misdemeanor charged;
(d) Be signed by the court, or clerk at the court's
direction for a specific summons; and
(e) Command the defendant to appear before the court
at a stated time and place in response thereto.
21.06 MISDEMEANORS – WARRANT FOR
ARREST – CONTENTS
(a) The warrant for arrest must be in writing and issued
in the name of the State of Missouri. It may be directed
to any peace officer in the state.
(b) The warrant shall:
(1) Contain the name of the defendant to be arrested or,
if not known, any name or description by which the
defendant can be identified with reasonable certainty;
(2) Describe the offense charged in the information or
indictment;
(3) State the date when issued and the county where
issued;

26b
(4) Command that the defendant named or described
therein be arrested and brought before the court
designated in the warrant as soon as practicable, but
when the defendant is confined in the county where
issued, no later than 48 hours after confinement,
excluding weekends and holidays;
(5) Specify the condition or combination of conditions of
release, if any, required by Rule 33.01(b) and allowed
by Rule 33.01(c); and
(6) Be signed by the court, or clerk at the court's
direction for a specific warrant.
n
21.09 MISDEMEANORS – APPEARANCE UNDER
WARRANT BEFORE THE COURT
A defendant arrested under a warrant for any
misdemeanor shall be brought for an appearance before
a judge of the court from which the warrant was issued
as soon as practicable, but when the defendant is
confined in the county where issued, no later than 48
hours after confinement, excluding weekends and
holidays.
The warrant, with proper return thereon, shall be filed
with the court as soon as practicable.
21.10 MISDEMEANORS – INITIAL APPEARANCE
BEFORE THE COURT
Upon the defendant's initial appearance:

27b
(a) The court shall inform the defendant of the
misdemeanor charged, the right to retain counsel, the
right to request the appointment of counsel if the
defendant is unable to retain counsel, and the right to
remain silent. The court shall also inform the defendant
that any statement made by the defendant may be used
against the defendant.
(b) If the defendant is appearing after release from
custody on a warrant, the court shall inform the
defendant of the conditions of release and that a
warrant may be issued immediately upon any violation
of a condition of release. The court shall also advise the
defendant of the right to apply for a modification of any
conditions of release at a hearing pursuant to Rule
33.06.
(c) If the defendant is in custody after arrest on a
warrant, the court shall inform the defendant of the
conditions of release, if any, and determine whether the
defendant can meet the conditions. If a defendant is
unable to meet the conditions, then, subject to the right
of a victim to be informed of and heard at a bail hearing,
the court may modify the conditions of release, if the
court determines the circumstances of the defendant
and the case require modification of the conditions. The
court shall inform the defendant that a warrant for
arrest may be issued immediately upon any violation of
a condition of release. If the defendant is not released
from custody following the initial appearance, the court
shall advise the defendant of the right to a release
hearing pursuant to Rule 33.05.
(d) If the defendant has appeared on a summons and
the offense is required to be given an offense cycle

28b
number, the court shall ensure the defendant has been
fingerprinted and processed by the appropriate law
enforcement agency for the purposes of creating an
offense cycle number.
2. It is ordered that effective July 1, 2019, subdivision 22.03,
subdivision 22.04, the heading title and subdivision 22.05, the
heading title and subdivision 22.07, the heading title and
subdivision 22.08, and subdivision 22.09 of Rule 22 be and the
same are hereby repealed and a new subdivision 22.03, a new
subdivision 22.04, a new heading title and a new subdivision
22.05, a new heading title and a new subdivision 22.07, a new
heading title and a new subdivision 22.08, and a new
subdivision 22.09 adopted in lieu thereof to read as follows:
22.03 FELONIES – STATEMENT OF PROBABLE
CAUSE – CONTENTS
A statement of probable cause must be in writing and
shall:
(a) State the name of the defendant or, if not known,
designate the defendant by any name or description by
which the defendant can be identified with reasonable
certainty;
(b) State the date and place of the offense as definitely
as can be done;
(c) State the facts that support a finding of probable
cause to believe an offense was committed and that the
defendant committed it;
(d) If a warrant will be requested, state the facts, if any,
that support a finding of reasonable grounds to believe
the defendant will not appear upon a summons or the

29b
defendant poses a danger to a crime victim, the
community, or any other person;
(e) State that the facts contained therein are true; and
(f) Be signed and on a form bearing notice that false
statements made therein are punishable by law.
22.04 FELONIES – WARRANT OF ARREST –
WHEN ISSUED
(a) When a complaint is filed pursuant to Rule 22.02 and
sufficient facts have been stated to show probable cause
that a felony has been committed, a summons shall be
issued unless the court finds there are reasonable
grounds to believe:
(1) The defendant will not appear upon the summons; or
(2) The defendant poses a danger to a crime victim, the
community, or any other person.
If the court so finds, a warrant of arrest for the
defendant may be issued.
(b) When an indictment charging the commission of a
felony is returned, either a summons or warrant of
arrest may be issued.
(c) When a complaint or an indictment charges a
corporation with the commission of a felony, a summons
shall be issued.
(d) If a warrant is issued under this rule, the court shall

30b
take into account, on the basis of available information,
the factors set forth in Rule 33.01(e) when setting the
condition or combination of conditions of release, if any,
required by Rule 33.01(b) and allowed by Rule 33.01(c).
22.05 FELONIES – WARRANT FOR ARREST –
CONTENTS
(a) The warrant for arrest must be in writing and issued
in the name of the State of Missouri. It may be directed
to any peace officer in the state.
(b) The warrant shall:
(1) Contain the name of the defendant to be arrested or,
if not known, any name or description by which the
defendant can be identified with reasonable certainty;
(2) Describe the felony charged in the complaint or
indictment;
(3) State the date when issued and the county where
issued;
(4) Command that the defendant named or described
therein be arrested and brought before the court
designated in the warrant as soon as practicable, but
when the defendant is confined in the county where
issued, no later than 48 hours after confinement,
excluding weekends and holidays;
(5) Specify the condition or combination of conditions of
release, if any, required by Rule 33.01(b) and allowed
by Rule 33.01(c); and

31b
(6) Be signed by the court, or clerk at the court's
direction for a specific warrant.
22.07 FELONIES – APPEARANCE UNDER
WARRANT BEFORE THE COURT
A defendant arrested under a warrant for any felony
shall be brought for an appearance before a judge of the
court from which the warrant was issued as soon as
practicable, but when the defendant is confined in the
county where issued, no later than 48 hours after
confinement, excluding weekends and holidays.
The warrant, with proper return thereon, shall be filed
with the court as soon as practicable.

22.08 FELONIES – INITIAL APPEARANCE
BEFORE THE COURT
Upon the defendant's initial appearance:
(a) The court shall inform the defendant of the felony
charged, the right to retain counsel, the right to request
the appointment of counsel if the defendant is unable to
retain counsel, and the right to remain silent. The court
shall also inform the defendant that any statement
made by the defendant may be used against the
defendant.
(b) If the defendant is appearing after release from
custody on a warrant, the court shall inform the
defendant of the conditions of release and that a
warrant may be issued immediately upon any violation

32b
of a condition of release. The court shall also advise the
defendant of the right to apply for a modification of any
conditions of release at a hearing pursuant to Rule
33.06.
(c) If the defendant is in custody after arrest on a
warrant, the court shall inform the defendant of the
conditions of release, if any, and determine whether the
defendant can meet the conditions. If a defendant is
unable to meet the conditions, then, subject to the right
of a victim to be informed of and heard at a bail hearing,
the court may modify the conditions of release, if the
court determines the circumstances of the defendant
and the case require modification of the conditions. The
court shall inform the defendant that a warrant for
arrest may be issued immediately upon any violation of
a condition of release. If the defendant is not released
from custody following the initial appearance, the court
shall advise the defendant of the right to a release
hearing pursuant to Rule 33.05.
(d) If the defendant has appeared on a summons and
the offense is required to be given an offense cycle
number, the court shall ensure the defendant has been
fingerprinted and processed by the appropriate law
enforcement agency for the purposes of creating an
offense cycle number.
22.09 FELONIES – PRELIMINARY HEARING
(a) Preliminary Hearing. After the filing of a felony
complaint, a preliminary hearing shall be held within a
reasonable time. At the preliminary hearing the
defendant shall not be called upon to plead.

33b
If the defendant waives preliminary hearing, the court
shall order the defendant to appear to answer to the
charge.
(b) Conduct of Hearing and Finding by the Court. If the
defendant does not waive preliminary hearing, the
hearing shall be held. The defendant may crossexamine witnesses and may introduce evidence.
If the court finds probable cause to believe a felony has
been committed and the defendant has committed it,
the court shall order the defendant to appear and
answer to the charge; otherwise, the court shall
discharge the defendant.
(c) Defendant to Appear in Court to Answer the
Charge. If the defendant is held to answer to the
charge, the court shall order the defendant to appear in
the appropriate division on a day certain as soon as
practicable, but not more than 40 days after completion
of the preliminary hearing.
Within five days after concluding the proceedings, the
court shall cause all papers in the proceeding and any
bail posted by the defendant to be transmitted to that
division.
3. It is ordered that effective July 1, 2019, subdivision 33.01,
the heading title and subdivision 33.02, subdivision 33.04, the
heading title and subdivision 33.05, subdivision 33.06,
subdivision 33.07, the heading title and subdivision 33.08, the
heading title and subdivision 33.09, subdivision 33.10, and
subdivision 33.11 of Rule 33 be and the same are hereby
repealed and a new subdivision 33.01, a new heading title and
a new subdivision 33.02, a new subdivision 33.04, a new

34b
heading title and a new subdivision 33.05, a new subdivision
33.06, a new subdivision 33.07, a new heading title and a new
subdivision 33.08, a new heading title and a new subdivision
33.09, a new subdivision 33.10, and a new subdivision 33.11
adopted in lieu thereof to read as follows:
33.01 MISDEMEANORS OR FELONIES – RIGHT TO
RELEASE – CONDITIONS
(a) A defendant charged with a bailable offense shall be
entitled to be released from custody pending trial or
other stage of the criminal proceedings.
(b) The defendant's release shall be upon the conditions
that:
(1) The defendant will appear in the court in which the
case is prosecuted or appealed, from time to time as
required to answer the criminal charge;
(2) The defendant will submit to the orders, judgment
and sentence, and process of the court having
jurisdiction over the defendant;
(3) The defendant shall not commit any new offenses
and shall not tamper with any victim or witness in the
case, nor have any person do so on the defendant's
behalf; and
(4) The defendant will comply fully with any and all
conditions imposed by the court in granting release.
(c) The court shall release the defendant on the

35b
defendant's own recognizance subject only to the
conditions under subsection (b) with no additional
conditions of release unless the court determines such
release will not secure the appearance of the defendant
at trial, or at any other stage of the criminal
proceedings, or the safety of the community or other
person, including but not limited to the crime victims
and witnesses. If the court so determines, it shall set
and impose additional conditions of release pursuant to
this subsection.
The court shall set and impose the least restrictive
condition or combination of conditions of release, and
the court shall not set or impose any condition or
combination of conditions of release greater than
necessary to secure the appearance of the defendant at
trial, or at any other stage of the criminal proceedings,
or the safety of the community or other person,
including but not limited to the crime victims and
witnesses.
When considering the least restrictive condition or
combination of conditions of release to set and impose,
the court shall first consider non-monetary conditions.
Should the court determine non-monetary conditions
alone will not secure the appearance of the defendant at
trial, or at any other stage of the criminal proceedings,
or the safety of the community or other person,
including but not limited to the crime victims and
witnesses, then the court may consider monetary
conditions or a combination of non-monetary and
monetary conditions to satisfy the foregoing. After
considering the defendant's ability to pay, a monetary
condition fixed at more than is necessary to secure the
appearance of the defendant at trial, or at any other

36b
stage of the criminal proceedings, or the safety of the
community or other person, including but not limited to
the crime victims and witnesses, is impermissible.
If the court determines additional conditions of release
are required pursuant to this subsection, it shall set and
impose one or more of the following conditions of
release:
(1) Place the defendant in the custody of a designated
person or organization agreeing to supervise the
defendant;
(2) Place restrictions on the travel, association, or place
of abode of the defendant during the period of release,
including the holding by the court of the defendant's
passport;
(3) Require the defendant to report regularly to some
officer of the court or peace officer, in such manner as
the court directs;
(4) Require the use of electronic monitoring of
defendant's location, the testing of defendant for drug
or alcohol use, or the installation and use of ignition
interlock devices. The court may order the eligible
defendant to pay all or a portion of the costs of such
conditions, but the court shall consider how best to
minimize the costs to the defendant and waive the costs
for an eligible defendant who is indigent and who has
demonstrated to the court an inability to pay all or a
portion of the costs;
(5) Require the defendant to seek employment, to
maintain employment, or to maintain or commence an

37b
educational program;
(6) Require the defendant to comply with a specified
curfew;
(7) Require the defendant to refrain from possessing a
firearm or other deadly weapon;
(8) Require the defendant to abstain from possession or
use of alcohol or any controlled substance without a
physician's prescription;
(9) Require the defendant to undergo available medical,
psychological or psychiatric treatment, including
treatment for drug or alcohol dependency and remain in
a specified institution if required for that purpose;
(10) Require the defendant to return to custody for
specified hours following release for employment,
school, treatment, or other limited purpose;
(11) Require the defendant to be placed on home
supervision with or without the use of an electronic
monitoring device. The court may order the eligible
defendant to pay all or a portion of the costs of the
electronic monitoring, but the court shall consider how
best to minimize the costs of such condition to the
defendant and waive the costs and ineligible defendant
who is indigent and who has demonstrated to the court
an inability to pay all or a portion of the costs;
(12) Require the defendant to execute a monetary bond
in a stated amount wherein the defendant promises to
pay to the court the stated amount should the
defendant fail to appear or abide by the conditions of

38b
release;
(13) Require the execution of a monetary bond in a
stated amount with sufficient sureties, or the deposit in
the registry of the court of a sum in cash or negotiable
bonds of the United States or the State of Missouri or
any political subdivision;
(14) Require the execution of a monetary bond in a
stated amount and the deposit in the registry of the
court of 10 percent, or such lesser sum as the court
directs, of such sum in cash or negotiable bonds of the
United States or the State of Missouri or any political
subdivision;
(15) Require the deposit of a property bond of sufficient
value as approved and directed by the court;
(16) Impose other conditions necessary to secure the
appearance of the defendant at trial, or at any other
stage of the criminal proceedings, or the safety of the
community or other person, including but not limited to
the crime victims and witnesses.
(d) Should the court determine upon clear and
convincing evidence that no combination of nonmonetary conditions and monetary conditions will
secure the safety of the community or other person,
including but not limited to the crime victims and
witnesses, then the court shall order the defendant
detained pending trial or any other stage of the criminal
proceedings. A defendant so detained shall, upon
written request filed after arraignment, be entitled to a
trial which begins within 120 days of the defendant's

39b
request or within 120 days of an order granting a
change of venue, whichever occurs later. Any request
by the defendant to continue the trial beyond the 120
days shall be considered a waiver by the defendant of
the right to have the trial conducted within 120 days.
(e) In determining whether to detain the defendant
pursuant to subsection (d) or release the defendant
with a condition or combination of conditions of release,
if any, pursuant to subsection (c), the court shall base
its determination on the individual circumstances of the
defendant and the case. Based on available information,
the court shall take into account: the nature and
circumstances of the offense charged; the weight of the
evidence against the defendant; the defendant's family
ties, employment, financial resources, including ability
to pay, character, and mental condition; the length of
the defendant's residence in the community; the
defendant's record of convictions; the defendant's
record of appearance at court proceedings or flight to
avoid prosecution or failure to appear at court
proceedings; whether the defendant was on probation,
parole or release pending trial or appeal at the time the
offense for which the court is considering detention or
release was committed; and a validated evidentiarybased risk assessment tool approved by the Supreme
Court of Missouri.
(f) A court detaining or releasing the defendant under
this rule shall enter an order stating the condition or
combination of conditions of release, if any, set and
imposed by the court. If the defendant is detained and
unable to comply with any condition of release, the
defendant shall have the right to a release hearing
pursuant to Rule 33.05. At any hearing conducted

40b
under Rule 33, the court shall permit but not require
either party to make a record on the defendant's
financial status and ability to pay any monetary
condition. At such hearing, the court shall also make
written or oral findings on the record supporting the
reasons for detention or conditions set and imposed.
The court shall inform the defendant of the conditions
set and imposed, if any, and that the conditions of
release may be revoked and the defendant detained
until trial or other stage of the criminal proceedings for
violation of any of the conditions of release and that a
warrant for the defendant's arrest may be issued
immediately upon notification to the court of any such
violation.
33.02 MISDEMEANORS OR FELONIES –
WARRANT FOR ARREST – CONDITIONS TO BE
STATED ON WARRANT
The court, or clerk at the court's direction for a specific
warrant, issuing a warrant for the arrest of any
defendant shall state the condition or combination of
conditions of release, if any, on the warrant for arrest.
33.04 MISDEMEANORS OR FELONIES –
OFFICER AUTHORIZED TO ACCEPT
CONDITIONS OF RELEASE
The court that set conditions of release, the clerk
thereof, or the sheriff may accept the conditions of
release and release the defendant.
33.05 MISDEMEANORS OR FELONIES –
RELEASE HEARING

41b
A defendant who continues to be detained after the
initial appearance under Rule 21.10 or Rule 22.08 shall
have defendant's detention or conditions of release
reviewed at a hearing by the court subject to the right
of a victim to be informed of and heard at the hearing.
The hearing shall occur as soon as practicable but no
later than seven working days after the initial
appearance, absent good cause shown by the parties or
the court. At the hearing, the court shall determine the
defendant's right to release and any conditions of
release as provided in Rule 33.01. Nothing herein shall
prohibit a defendant from making subsequent
application for review of the defendant's detention or
conditions of release under Rule 33.01.
33.06 MISDEMEANORS OR FELONIES –
MODIFICATION OF CONDITIONS OF RELEASE
(a) Upon motion by the state or by the defendant, or
upon the court's own
motion, the court, subject to the right of a victim to be
informed of and be heard, and after notice to the parties
and hearing, may modify the conditions of release when
the court finds that:
(1) New, different or additional requirements for
release are necessary; or
(2) The conditions of release which have been set are
excessive; or
(3) The defendant has failed to comply with or has
violated the conditions of release; or

42b
(4) The defendant has been convicted of the offense
charged.
(b) When the conditions of release are increased by the
court, or new conditions of release are set and imposed,
the defendant shall be remanded to the custody of the
sheriff or other officer until compliance with the
modified conditions. If the defendant is not in custody,
the court may order that a warrant for the defendant's
arrest be issued.
33.07 MISDEMEANORS OR FELONIES – RULES
OF EVIDENCE INAPPLICABLE
Proceedings under Rule 33 shall be informal and rules
of evidence need not apply.
33.08 MISDEMEANORS OR FELONIES –
REARREST OF DEFENDANT
The court may order the arrest of a defendant who has
been released if it shall appear to the court that:
(a) There has been a breach of any condition of release;
or
(b) The conditions of release should be modified or new
or additional conditions imposed.
The defendant shall be entitled to a hearing concerning
the reasons for the issuance of the warrant as soon as
practicable, but when the defendant is confined in the
county where issued, no later than 48 hours after
confinement, excluding weekends and holidays.

43b
33.09 MISDEMEANORS OR FELONIES FAILURE OF COURT TO SET CONDITIONS OF
RELEASE, OR SETTING OF INADEQUATE OR
EXCESSIVE CONDITIONS OF RELEASE APPLICATION TO HIGHER COURT
Pursuant to these rules, applicable statutes and
constitutional provisions, if the defendant or the state
allege the court unlawfully detained the defendant,
failed to detain the defendant, or set inadequate or
excessive conditions of release, the defendant or the
state may seek remedial writ relief in a higher court
pursuant to Rule 84.24.
33.10 MISDEMEANORS OR FELONIES –
TRANSMITTAL OF RECORD BY CLERK OF THE
RELEASING COURT
When any defendant is released by a court other than
the court in which the defendant is to appear, the clerk
of the releasing court shall transmit a record of the
release, together with any conditions of release
imposed, to the clerk of the court in which the
defendant released is required to appear.
33.11 MISDEMEANORS OR FELONIES – BONDS –
WHERE FILED – CERTIFICATION BY SHERIFF
OR PEACE OFFICER – CASH BONDS
All bonds shall be filed by the clerk of the court in
which the defendant is required to appear. All bonds
taken by the sheriff or by any other peace officer shall
be certified by such officer and transmitted to the clerk
of the court in which the defendant is required to

44b
appear. When cash or securities specified in Rule 33.01
are taken they shall be delivered to the clerk of the
court in which the defendant is required to appear and
deposited in the registry of the court.
4. It is ordered that notice of this order be published in
the Journal of The Missouri Bar.
5. It is ordered that this order be published in the South
Western Reporter.
Day – to – Day
_______________________________
ZEL M. FISCHER
Chief Justice

45b
https://nemonews.net/2019/08/21/confused-about-thenew-court-rules-surrounding-bond-reform-we-weretoo/
Confused About the New Court Rules Surrounding
Bond Reform? We Were Too.

August 21, 2019
By Echo Menges
Sweeping statewide jail bond reforms have been made
by the Missouri Supreme Court (MSC), which have
been confusing. NEMOnews Media Group is on a
mission to understand these reforms and adequately
explain them to our readers throughout the region by
publishing a series about them in all of our publications
and online. This article is the first installment of the
effort to better explain what “pretrial release reform”
is, where it came from, how it works and who is
affected. So, here goes.
What’s going on?
Besides presiding over and issuing decisions and
opinions on a myriad of cases, the MSC oversees all of
the courts in the state, which includes the courts in our
individual counties, by setting all of the “court rules”
statewide. These court operating rules layout
everything from how court is conducted to the duties of
each officer of the court (judge, jury, council, court
reporter, etc.).
Article V Section 5 of the Missouri Constitution
basically entrusts the MSC justices to be the court

46b
policy and procedure writers for the entire Missouri
judicial system.
At the end of 2018 and the beginning of 2019, the MSC
issued orders changing some court rules and setting
some new court rules into motion, which took effect on
July 1, 2019. These court rule changes have brought
sweeping reform where jailing defendants (people
charged with crimes) is concerned - especially those
unable to post high bond amounts.
The Backstory - Why is this happening?
Then Chief Justice Patricia Breckenridge briefly
mentioned the effort to tackle pretrial release reform
during her State of the Judiciary address on January
24, 2017, while introducing the state to a special task
force charged with identifying problems built into the
Missouri court system and recommending needed
changes saying:
Our next goal is to improve pretrial incarceration
practices. Incarcerating persons simply because they
are too poor to post bond needs to be examined in both
municipal and criminal cases. Under our Missouri
Constitution, an individual may be incarcerated before
trial only when charged with a capital offense; when a
danger to a crime victim, a witness, or the community;
or a flight risk.
All other persons are entitled to reasonable conditions
of release prior to trial, based on the particular
circumstances of their cases.
Our cities and counties incur costs for pretrial
incarcerations of people who simply are poor. There are

47b
individual and societal consequences from these
unwarranted pretrial incarcerations. The consequences
impact the defendants, their families and, ultimately,
the state. Defendants lose not only their freedom but
also their ability to earn a living and to provide for
loved ones. Children may even come into state custody,
because incarcerated parents are not home to care for
them. And – after only three days in jail – the
likelihood that an individual will commit future crimes
also increases.
A Supreme Court task force will examine how other
states and cities have addressed the problem of
unwarranted pretrial incarceration and recommend
changes to our practices. We look forward to sharing
what we learn with you and working together to enact
common-sense reforms.
Pretrial release was again highlighted one year later
when it was mentioned by then MSC Chief Justice Zel
Fischer during the State of the Judiciary address on
January 24, 2018. The Chief Justice told the Missouri
General Assembly in Jefferson City:
Last June (of 2017), the Court established a task force
focused broadly on criminal justice.
This group is led by Judge Michael Noble of St. Louis,
Christian County Prosecutor Amy Fite and defense
attorney J.R. Hobbs of Kansas City. They will
recommend evidence-based risk-assessment tools for
determining a defendant’s suitability for pretrial
release; recommend ways to improve how courts
impose fines, fees and costs; and identify technological
opportunities to improve notice, compliance and public
safety.

48b
These efforts are part of broader national movement
away from bail release decisions based on financial
conditions toward considerations of the risks posed by
individual defendants. The national experts suggest
there are ways to provide effective screening and
supervision to monitor those defendants deemed safe
for release during the pretrial period.
It seems obvious and important that – before a trial is
held and guilt or innocence is determined – we reserve
our jail space for those who pose the most danger to the
community or risk of fleeing the jurisdiction, and not
those who simply may be too poor to post bail. Studies
show even short stints in jail increase the likelihood of
missing school or losing jobs and housing. And, of
course, pretrial supervision costs a local community
substantially less than pretrial incarceration.
Justice Fischer further elaborated during an address at
the annual meeting of The Missouri Bar and the Judicial
Conference of Missouri in St. Louis on September 27,
2018, saying, “Earlier this year, the 5th Circuit Court of
Appeals ruled the cash bail system in Texas’ most
populous county, and the third biggest in the whole
nation, violates the due process and equal protection
rights of defendants charged with misdemeanor
offenses who simply could not afford to post bail. And
just last month, California enacted legislation
abolishing cash bail. Washington, D.C., already has a
cashless bail system, and states like New Jersey have
reduced their reliance on monetary bail. The discussion
continues in Missouri, where we all share a
responsibility to protect the public but ensure those
accused of crime are treated fairly and equitably
according to the law.”

49b
During the same address, Justice Fischer also said,
“Too often, though, bail is based on an outdated
schedule handed down from one well-meaning judge to
another. While our judges generally have considered an
accused individual’s circumstances appropriately in
response to a motion to reduce bail, even relatively
short periods of jail time can cause long term
detrimental effects. We have charged the task force
with finding ways to move away from the use of bail
schedules to help ensure the determinations – and
conditions – of pretrial release are made more
accurately and with the best information, and are not
based on race, gender, ethnicity or economic conditions.
I look forward to the time when those who are most
likely to receive probation at the resolution of their
cases but do not have enough money to post bail at the
outset are released on their own recognizance with
appropriate conditions, and when those who truly pose
a danger to crime victims or our communities will be
held pending trial regardless of their wealth.”
Less than three months after making those remarks,
Justice Fischer and the rest of the MSC, rolled out the
new changes in the form of an MSC Order dated
December 18, 2018, with an effective date of July 1. On
February 13, 2019, the MSC issued a new order after
correcting a typographical error in the December 2018
order, sticking to the effective date of July 1, 2019.
Just ahead of the pretrial release reform rules going
into effect, the MSC issued another order on June 25
rewriting and further elaborating on some of the rules
set forth in the corrected February order, then vacated
that order and issued a new order on June 30, which
caused a considerable amount of confusion among court
personnel locally and the general public at large.

50b
I’m confused. Are the new rules in effect or not?
Yes, according to a representative of the Missouri
Supreme Court, the February order did go into effect
on July 1. The changes made to the new rules on June
30 will go into effect on January 1, 2020, because there
has to be a six month period between the time a MSC
order is given and the time the order can go into effect,
which is laid out in Article V Section 5 of the Missouri
Constitution.
Also, the MSC Task Force on Criminal Justice issued a
statement on July 12 explaining, yes, the new rules are
in effect. Yes, some modifications were made on June
30, which go into effect on January 1. They wrote:
Following Chief Justice Fischer’s announcement, and
during the more than six months before the changes
became effective, numerous judges, prosecutors,
defense attorneys, law enforcement officers, and other
individuals and entities made timely and notable
suggestions concerning the rule changes. The Task
Force considered these suggestions and proposed
certain modifications to the rule changes. Once again,
the Task Force recommended the Supreme Court adopt
these corrections, and the Court adopted many, if not
most, of the recommended corrections in late June. The
rule changes the Court adopted in December 2018
became effective July 1, 2019, while the modifications
the Court subsequently adopted will become effective
January 1, 2020.
What are the changes?
Then MSC Chief Justice Fischer’s remarks during
the State of the Judiciary address to a joint session of

51b
the Missouri General Assembly in Jefferson City on
January 30, 2019, laid out the following major changes:
1) The court must start with non-monetary conditions
of release and may impose monetary conditions only if
necessary and only in an amount not exceeding that
necessary to ensure safety or the defendant’s
appearance.
2) The court may not order a defendant to pay any
portion of the costs of any conditions of release without
first considering how to minimize or whether to waive
those costs.
3) A court may order a defendant’s pretrial detention
only if it determines – by clear and convincing evidence
– that no combination of non-monetary and monetary
conditions will ensure (the) safety of the community or
any person.
4) The new rule also limits how long a defendant may
be detained without a court hearing, and ensures a
speedy trial for those who remain in jail.
“These new rules that went into effect on July 1, for the
most part, pertain to letting somebody out of jail on
bond while their case is pending,” said Kevin Locke,
District Defender for the Missouri Public Defender’s
Office in Kirksville. “I think the spirit behind it is that
you’re innocent until you’re proven guilty and the only
purpose of bond is to ensure that you’re going to appear
for trial when you’re supposed to, ensure you’re going
to appear for court when you need to, and to make sure
that you don’t pose a danger to the general public or
any particular person.”

